                                                  NA TIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

                                  ,,
Case Number: A09030017                                                                       Page'l of 1



                Our investigation determined that the Subject l kno~ingly plagiarized in proposals
         submitted to NSF. NSF made a finding of research misconduct by the Subject; sent a letter of
         reprimand to the Subject; required the Subject to submit certifications to the Assistant Inspector
         General for Investigations (AlGI), NSF OIG for four years; required the Subject's employer to
         submit assurances to the AlGI ofNSF OIG for four years; prohibited the Subject from serving as
         a reviewer of NSF proposals for three years; and required the Subject to provide certification to
         the AlGI that he has completed a course on the proper conduct of research.

                 This memo, the attached Report of Investigation, and the letter from NSF with a finding
         of research misconduct constitute the case clos~out. Accordingly, this case is closed.




NSF 01G Form 2 (11/02)
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230



                                            NOV 1 6 2011 


      OFFICE OF THE 

        DIRECTOR 





CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:      Notice ofResearch Misconduct Determination


Dear_

       From 2004 - 2008, you submitted seven proposals to the National Science Foundation
("NSF"). These proposals are identified in footnote 2 of the attached Investigative Report
prepared by NSF's Office of Inspector General ("OIG"). As documented in this Report, these
proposals contained plagiarized material.

Research Misconduct and Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 4S CFR § 689.1(a). NSF
defmes "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices 	of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

       Your proposals contained text copied from numerous source documents. By SUbmitting
proposals to NSF that copied the ideas or words of another without adequate attribution, as
described in the OIG Investigative Report, you misrepresented someone else's work as your own.
Your conduct unquestionably constitutes plagiarism. I therefore conclude that your actions meet
                                                                                              Page 2
the definition of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. \45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed knowingly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of·
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or. certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. r have also considered the fact that your misconduct was part of a pattern of
plagiarism, and had no substantive impact on the research record, as well as other relevant
circumstances. 45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) Until November 1, 2015, you must provide certifications to the OIG that any proposal
           or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;

       (2) Until November 1,2015, you must obtain, and provide to the OIG, assurances from a
           responsible official of your employer that any proposal or report you submit to NSF as
           a PI Or co-PI does not contain plagiarized, falsified, or fabricated material;

       (3) You are prohibited from serving as a peer reviewer of NSF proposals until November
           1,2014; and

       (4) Prior to submitting additional proposals to NSF, but no later than November 1, 2012,
           you must take a course on the proper conduct of resear.sh. You must provide
           certification to the OrG of your attendance at such a course.
                                                                                            Page 3
       The certifications and assurances should be submitted in writing to NSF's OIG, Associate
Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.

Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.1O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please c a l l _ Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                    Wanda Ward
                                                    Senior Advisor to the Director




Enclosures:
Investigative Report
45 C.F.R. Part 689



                                                                  )
     National Science Foundation 

       Office of Inspector General 


                                           _ fI"~.'
                                             -6J. •         ...

                                      s..~-rfi-
                                                        'I.'      ~




                                   I. .. --
                                   I
                                       II~1   . . J.. ".
                                   •••......•..I

                                           ~r 'F"

                                                   ~
                                                       f'

                                                              .~
                                                                  •




                     Confidential 

                Report of Investigation 

               Case Number A09030017 

                                 7 July 2011 

                This Confidential Report of Investigation is provided to you
                                 FOR OFFICIAL USE ONLY.
It contains protected personal information, the unauthorized disclosure ofwhich may result in
personal criminal liability under the Privacy Act, 5.U.S.C. §552a; This report maybe further
disclosed within NSF only to individuals whomust'have knowledge ofits contents to
facilitate NSF's assessment and resolution of this matter. This report may be disclosed
outside NSF only under the Freedom ofInforrnation and Privacy Acts, 5 U.S.C. §§ 552 &
552a. Please take appropriate precautions handling this confidential report ofinvestigation.
                                  .....
CONFIDENTIAL 	                                                                     CONFIDENTIAL


                                     Executive Summary

OIG's inquiry established that:

   • 	 copied text appeared in seven of the Subject's NSF proposals.

University's investigation concluded that:

   • 	 the Subject plagiarized text into four NSF proposals;
   • 	 the Subject's actions were a significant departure from the standards of the research
       community; and,
   • 	 the Subject's actions constitute academic misconduct.

OIG concludes that:

   • 	 Act: The Subject plagiarized approximately 618 lines oftext into 7 proposals submitted
       to NSF over a period of 5 years.
   • 	 Intent: The Subject acted recklessly.
   • 	 Standard of Proof: A preponderance ofthe evidence supports the conclusion that the
       Subject's acts were a significant departure from accepted practices, and therefore
       constitute research misconduct.
   • 	 Pattern: The Subject's actions are part ofa pattern of plagiarism.

OIG recommends that NSF:

   •	  Make a finding of research misconduct against the Subject;
   •	  Send a letter of reprimand to the Subject;
   •	  Debar the Subject for a period of 1 year;
   •	  Require that the Subject submit certifications to AlGI, NSF OIG for 4 years after
       debarment ends that any submissions to NSF do not contain falsified; fabricated, or
       plagiarized material;
   • 	 Require that the Subject provide assurances from his employer to AlGI, NSF OIG for 4
       years after debarment ends that any submissions to NSF do not contain falsified,
       fabricated, or plagiarized material;
   • 	 Prohibit the Subject from serving as a merit reviewer of NSF proposals for 3 years after
       debarment ends; and
   • 	 Require the Subject to provide certification to NSF OIG of attendance at a training course
       in responsible conduct of research within 1 year of the finding of research misconduct.




                                                2

 CONFIDENTIAL                                                                                  CONFIDENTIAL


                                                         OIG's Inquiry

        We assessed. an allegation that seven of the Subject's I NSF proposals 2 contained copied
 text. Our review of these proposals revealed approximately 618 unique lines of text apparently
 copied from 21 sources. The table below identifies the extent ofthe copied text in the seven
 proposals


                      Proposal            Number of Unique               Unique
                                          Copied Lines                   Sources
                      A                              192                   7
                /     B                               39                     4
                      C                               55                     5
                      D                               96                     1
                      E                               31                     1             .

                      F                               12                     1
                      G                              193                     I             !




        We wrote the Subject to invite his explanation. 3 The Subject replied 4 that he copied
 some material from the indicated sources, but claimed that any omission of references was
 unintentional. The Subject claimed that some copied text was provided to him by his students.
 The Subject did not address the absence of quotation marks or other distinguishing features for
 any ofthe copied text, and did not dispel the allegation. We referred an investigation to the
 Subject's University. 5

                                         University's Iuquiry and Investigation

         Pursuant to its policy,6 the University first conducted an inquiry. The inquiry committee
  considered the seven annotated proposals and apparent sources provided in our referral letter,
. and the Subject's response to our inquiry letter. The inquiry committee divided the seven NSF
  proposals into two groups. Three proposals 7 were characterized by the inquiry committee as
  containing relatively less copied text than the remaining four proposals, or text copied only into
  the background section. The inquiry committee concluded that copying in these proposals did




 None of these proposals was funded by NSF.
 3 Our inquiry letter to the Subject is at Tab 1.
                        is at Tab 2.
                                       The referral of investigation letter is at Tab 3.
 6
    In",pr~'t" policy is at Tab 4.
 1 Proposals B, E, and F.




                                                             3

 CONFIDENTWJ                                                                                        CONFIDENTIAL


 not merit further investigation. 8 The inquiry committee recommended investigation of. apparent
 plagiarism in the remaining four proposals. The Vice Chancellor for Research 9 appointed an
 investigation committee (IC), 10 charged it specifically with examination ofthe four proposals
 identified by the inquiry committee, but stated that the IC could also examine the other three
 proposals.

           We received a copy ofthe IC report, supporting documents, and University action 

 letters. II The Subject again stated that he regularly asked graduate students to provide text for 

,the background section of the proposals, specifically Proposal G which had text provided by his
 current graduate student. However, the IC interviewed the student who denied ever writing such
 materials for the Subject.

         Based on the evidence, the IC unanimously concluded, by a preponderance of the 

 evidence, that the Subject committed plagiarism, that the plagiarism was a departure from 

 accepted ~ractices of the relevant research community, and that the Subject's actions were 

 reckless. I The IC stated:                                                             .


           [the Subject] admitted to leaving the writing of the background material in these
           proposals to graduate students and not reviewing it carefully, if at all. ... In all
           cases when asking students, to participate in proposal preparation, the norm is to
           carefully review the work. In this case, at least one of the students had weak
           English skills as observed directly by the panel. [The Subject] was well aware of
           that, and should have, under normal circumstances, been prepared to proofread
           any sections written by this or any other student. It is inexplicable that he did not
           review and/or edit what the student wrote. There is no excuse for this admitted
           behavior of [the Subject]. 13

         The IC concluded that the Subject's actions of plagiarism were not part of a broader
 pattern. The IC based its conclusion after examining three non-NSF proposals submitted by the
 Subject and a publication coauthored by the Subject, none of which contained plagiarism. While
 eschewing the conclusion ofa pattern of behavior by the Subject, the panel nevertheless
 describes that "plagiarism was pervasive and reckless in the documents identified by the NSF.,,14
 The IC concluded that the Subject's actions "did not have a significant effect on the research·
 record, research subjects, other researchers, institutions, or public welfare.,,15 This conclusion
 was based on its assessment that plagiarism was limited to the NSF proposals, and the tact that
 none were funded.

         The IC recommended that the Subject be prohibited from seeking funding through grants
 or contracts for a period of one year, and that he be removed from an advisory and research

                      hr",,,,,,,,~r   is not supported by University policy (Tab 4).

 10          University faculty members were appointed to the Ie; they did not serve on the inquiry committee. 

 II   All materials received from the University are at Tab 5. 

 12   Ie report, page 2 (Tab 5). 

 13   Ie report, page 2 (Tab 5). The Subject's actions relate to preparation of proposal G. 

 14   Ie report, page 2 (Tab 5). 

 15   Ie report, page 2 (Tab 5). 



                                                                  4
     CONFIDENTIAL 	                                                                                    CONFIDENTIAL
                                        /




     supervision role for his students. 16 The Subject responded to the IC report in a letter to the
     University Vice Chancellor for Research as follows: "As I have mentioned before I would like to
     state my innocence in this matter but I completely take responsibility for my oversight ofthe
     material that was prov.ided to me."J7 The Subject asked that the proposed prohibition! of
     submission of grant and contract proposals be made retroactive.

             The University Vice Chancellor recommended that the University Chancellor prohibit the
     Subject from sUbmitting grant and contract proposals through the University for six months, and
     that the Subject be removed from an advisory and supervision role for the student allegedly
     involved in the proposal preparation, and complete training on the responsible conduct of
     research. 18 The Chancellor agreed with the recommendation. 19

                                                   OIG's Assessment

             We invited the Subject to comment on the University IC report, bul received no
/	   comments. We concluded that the IC report was fundamentally accurate and complete, and that
     the University followed reasonable procedures. However, we did not agree with the University
     that onlyfour ofthe seven instances of copied text were egregious. Our assessment considers
     copied text in all seven proposals submitted by the Subject.

            A finding of research misconduct by NSF requires that 1) there be a significant departure
     from accepted practices of the relevant research community, that 2) the research misconduct be
     committed intentionally, or knowingly, or recklessly, and that 3) the allegation be provt~d by a
     preponderance of the evidence. 20



             The Subject's copying of text extended over a period of years in multiple NSF proposals.
     The pervasiveness of copied text in NSF proposals over a period of years contrasts with the
     Subject's claim of unintentional copying, or the lack of time to edit students' submissions oftext
     to him for use in his proposals. The Subject was responsible for approximately 618 lines of
     copied text in his NSF proposals. The NSF Grant Proposal Guide is clear: NSF expects strict
     adherence to the rules ofproper scholarship and attribution. The responsibility for proper
     attribution and citation rests with authors ora proposal; all parts ofthe proposal should be
     prepared with equal care for this concern. 2 The Subject is reasonably aware of standards for
     proper scholarship and attribution, having received M.S. and Ph.D. degrees at a major research
     university,22 and publishing papers in the major journals within his field. 23 We concur with the

     16 IC report, page 3 (Tab 5).
     17 Subject's response letter to the Vice Chancellor for Research, 9 June 2010. 	                    .
     18 The Vice Chancellor specified afterwards that this requirement was to be fulfilled by completion ofthi~ on-line
     Collaborative Institutional Training initiative course on the Responsiblc Conduct of Research.
     19 The prohibition on submission of grant and contract proposals extends until 23 February 2011.
     20 45 C.F.R. §689.2(c).
     21 ~ide, Chapter I, Section D.3. 	                                                                          :
     22~
     23 Subject's biographical sketch from Proposal G is at Tab 6, which also includes the Subject's faculty web page
     and personal page at the University.


                                                               5

CONFIDENTIAL                                                                           CONFIDENTIAL



Institution that in failing to ensure adequate attribution to the text of other authors, the Subject
committed plagiarism, and his actions significantly departed from accepted standards ofthe
research community.



        The Ie characterized the Subject's actions as reckless, sufficient for a finding of research
misconduct. The IC's particularly noted the" extensive plagiarized text in Proposal G, which the
Subject claimed was due to the student's copying from a review article. The Ie emphasized the
incongruity of the Subject's stated awareness of the student's weak English skills, and then his
reckless acceptance and use of the student's contribution in his NSF proposal without editorial
review. The Ie characterized the Subject's actions in preparation of Proposal G as inexcusable.
We concur with the University that the Subject's intent in the totality of his acts was egregiously
reckless.

                                          Standard o(Proo(

       We concur with the University that the preponderance ofthe evidence proves that the
Subject failed to provide adequate attribution to the text of other authors.

         Because the preponderance ofthe evidence proves the Subject recklessly plagiarized text
into his NSF proposals, and because these actions represent a significant departure from accepted
practices, we conclude that the Subject's plagiarism constitutes research misconduct.

                                OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) how serious the misconduct was; (2) the degree to which the misconduct was
knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern;
(4) whether it had a significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and (5) other relevant circumstances. 24

                                             Seriousness

        The Subject copied approximately 618 lines of text into seven NSF proposals. In so
doing, the Subject presented that text to NSF proposal reviewers as his own. The University IC
found, and we concur, that the Subject's plagiarism is a significant departure from accepted
practices. The Subject's pattern of plagiarism in NSF proposals extended over a period of years.
Serial plagiarism must be considered a very serious breach of research ethics.

        The extent of plagiarism by the Subject in this case far exceeds the level for which NSF
has made previous findings of research misconduct, and put in place requirements for
certifications and assurances. The extent of plagiarism is evidenced by the number oflines of
text copied, the number of proposals in which copied text appears, and the number of years over


24   45 C.F.R. § 689.3(b).


                                                   6"
CON~IDENTIAL                                                                                     CONFIDENTIAL



which the Subject's pattern of plagiarizing in proposals to NSF endured. We believe that the
extent of plagiarism in this case is sufficient to make a recommendation for debarment.

                                       Degree to which the Act was Reckless

       As an example of degree of intent, the Subject, according to his own account, accepted
extensive text and references prepared by a student whose English skills were weak, and
incorporated it unchanged and unedited into his NSF proposal. 25 The IC concluded that the
Subject's lack of suspicion about the publication-quality composition from a student with weak
English skills,26 coupled with the fact that the Subject claims to have provided the source
publication to the student as a reference, was inexcusably reckless. We concur.

                                                     Pattern

        The Ie concluded that the Subject's actions were not part of a broader pattern, based on
their evaluation of three other proposals submitted by the Subject and a publication. 27 However,
the Subject's recurrent plagiarism in NSF proposals over Ii period of years is clear and
compelling evidence for a pattern of behavior by the Subject.

                                           Impact on the Research Record .

        All ofthe Subject's NSF proposals were declined; the impact of the Subject's plagiarism
on the research record is therefore limited to activities related to NSF merit review of those
proposals.


                          Subject's comments on the draft Report ofInvestigation

        We provided a draft copy of this report of investigation to the Subject for comments. In
his response (Tab 7), the Subject accepted responsibility for checking for plagiarism in his
proposals, but stated that ongoing medical treatments affected his ability to review materials that
students had provided. The Subject described the recommendation of a one year debarment as
harsh, and requested that it be made retroactive to August 23,2010, which was the effective date
of the University adjudication of the case. 28

        The Subject did not dispute any of the facts established in our investigation. We
conclude that our recommendations for debarment, certifications and assurances, and for
attending an ethics course remain appropriate and sufficient to protect NSF's interests.




25 Proposal G. 

26 The text was copied from a review article in a prestigious scientific journal. 

27 Ie report, page 3 (Tab 5). 

28 In response to a similar request from the Subject, the University modified several actions. We conclude that a 

retroactive debarment erodes the purpose of a debarment in protecting the government's interests. 



                                                         7

CONFIDENTIAL 	                                                                                      CONFIDENTIAL




                                                Recom mendations

             We recommend that NSF:

     -.       Make a finding. of research misconduct against the Subject;
      •     	 Send a letter of reprimand to the Subject;29
      •     	 Debar the Subject for a period of 1 year;30
     -. 	     Require that the Subject certify for 4 years after debarment ends that any submissions to
              NSF do not contain falsified, fabricated, or plagiarized material;3l
      •     	 Require  that the Subject obtain assurances from a responsible official of his employer for
              4 years after debarment ends that any submissions to NSF do not contain falsifi(:d,
              fabricated, or plagiarized material;32
      •     	 Prohibit the Subject from serving as a merit reviewer of NSF proposals for 3 years after
              debarment ends;33 and
      •     	 Require the Subject to provide certification to NSF OIG of attendance at a trainin~ course
              in proper conduct of research within 1 year of the finding of research misconduct. 4


         Subject's certifications, assurances, and certificate of attendance should be sent to the 

      Assistant Inspector General for Investigations for retention in OIG's confidential file. 





29   A letter of reprimand is a Group I action, 45 C.F.R. § 689.3(a)(l)(i). 

30   Debarment is a Group III action, 45 C.F.R. § 689.3(a)(3)(iii). 

31   A certification from the subject is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(1). 

32   Assurance from the subject's employer is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(1). 

33   Prohibition from service as a reviewer for NSF is a Group III action, 45 C.F.R. § 689.3(a)(3)(ii). 

34   A course requirement is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(1). 



                                                           8
